
App.1

APPENDIX A
IN THE UNITED STATES DISTRICT
COURT FOR THE SOUTHERN
DISTRICT OF TEXAS
BROWNSVILLE DIVISION
BLANCA ARIZMENDI,
Plaintiff,
VS
BROWNSVILLE INDEPENDENT SCHOOL
DISTRICT, et al
Defendants
CIVIL ACTION
NO.1:16-CV-00063
MEMORANDUM OPINION AND ORDER
Before the Court is Defendants' Motion for
Summary Judgment [Doc. No. 25]. The
Plaintiff brought suit under 42 U.S.C. §§
1983,
1985(2)
against
Brownsville
Independent School District ("BISD"), BISD
Police Department, and Sergeant Patrick
Gabbert ("Sgt. Gabbert") in his individual
capacity. The Court granted BISD Police
Department's Motion for Summary Judgment
in its March 2nd, 2017 Order. [Doc. No. 39].
The remaining claims in this suit are 42
U.S.C. § 1983 Fourth Amendment false arrest
and malicious prosecution claims against Sgt.
Gabbert, a 42 U.S.C. § 1985(2) conspiracy
claim against Sgt. Gabbert and BISD, and 42
U.S.C. § 1983 First Amendment retaliation
claims against Sgt. Gabbert and BISD.




App.2

During the hearing on this Motion, the Court
requested briefing on three topics related to
the core issues pertaining to possible material
issues of fact. The Court will address the
parties' briefing on those issues in addition to
resolving any remaining issues presented in
the earlier filings in this case.
I. Background
High school class rank can be a
determinative factor for prestigious college
admissions and scholarships. Given its
importance in today's society, students
aiming for coveted top spots often find
themselves locked in intense competition
with their classmates. A fair grading system
Page 2
ultimately leads even the most ambitious
students to accept their academic outcomes,
wherever the chips may fall. Naturally, a
particular
student's
unfair
advantage
allowing him or her to game the system
sparks controversy and peer resentment.
The Plaintiff is a French teacher employed
by BISD, assigned to Simon Rivera High
School ("Rivera High School"). The Plaintiff
received a note from Ms. Dora Martinez
concerning Ms. Martinez's daughter's grade
point average ("GPA"). Ms. Martinez is
related to Rivera High School Principal
Hector Hernandez ("Principal Hernandez"),
and her daughter is Principal Hernandez's
niece. Ms. Martinez w was apparently upset
that her daughter received a 90 average on
her assignments in Plaintiffs class in the
third six weeks of the fall semester of 2012.
Allegedly, Principal Hernandez began to




App.3

express his concern about his niece's grade to
Plaintiff, and also recruited Assistant
Principal Rose Ortiz ("Assistant Principal
Ortiz") to further convey his dissatisfaction
about his niece's grade to Plaintiff. According
to Plaintiff, Principal Hernandez escalated
his coercive tactics at a May 21, 2013
meeting. At that meeting, Principal
Hernandez allegedly tried to pressure,
intimidate, and coerce Plaintiff into raising
his niece's GPA.
A later review of Principal Hernandez's
niece's grades revealed an apparent
discrepancy. A grade change form allegedly
signed and submitted by Plaintiff boosted
Principal
Hernandez's
niece's
grade
considerably, resulting in a GPA that tied her
for the second highest GPA in her class. [See
Defs.' Ex. A, Doc. No. 25-1 at 32]. An
unknown source leaked information about the
grade change, and the controversy became a
popular topic on local news stations. The
Plaintiff denies that she made the change and
alleges that Principal Hernandez or Assistant
Principal Ortiz orchestrated the grade
change. The Defendants instead contend that
Plaintiff was responsible for submitting the
grade change form.
Page 3
The Plaintiff filed a grievance against
Principal Hernandez on June 14, 2013,
accusing him of forging Plaintiffs signature to
change his niece's grade and of creating a
hostile work environment for Plaintiff. [Pl.'s
Ex. 9, Doc. No. 27-10 at 3]. After the grade
change controversy became a topic for local
media, Sgt. Gabbert, a detective with the




App.4

BISD Police Department, initiated an
investigation on July 17, 2013 at the behest
of Dr. Tony Juarez, BISD's then director of
human resources, into the possible offense of
tampering with a government record under
Tex. Pen. Code § 37.10. [Defs.' Ex. A, Doc. No.
25-1 at 5]. Soon thereafter, Plaintiff was
questioned by Sgt. Gabbert as to whether
Plaintiff actually signed the grade change
form. [Id. at 6].
The Plaintiff claims that at the time of her
interview with Sgt. Gabbert, she believed
that she was simply a cooperative witness in
Sgt. Gabbert's investigation. The Plaintiff
was also interviewed by the Cameron County
District Attorney's office along with other
employees from BISD. According to Sgt.
Gabbert's case files, on September 24, 2013,
Plaintiff told Sgt. Gabbert that the signature
on the grade change form was a forgery.
[Defs.' Ex. A, Doc. No. 25-1 at 6]. On
September 28, 2013, Plaintiff submitted a
sworn statement to Sgt. Gabbert averring to
the same. [Id. at 24, 26].
Sgt. Gabbert's case files indicate that on
December 13, 2013, Sgt. Gabbert asked
Plaintiff for samples of her handwriting. [Id.
at 13]. Sgt. Gabbert sent the samples to the
Texas Department of Public Safety Crime
Lab ("DPS"). On July 16, 2014, DPS issued a
report indicating that there was a strong
possibility that Plaintiff wrote her signature
on the grade change form, but that a more
definite determination might be possible if
Sgt. Gabbert submitted additional signature
samples. [Id. at 40]. In September of 2014,
Sgt. Gabbert obtained




App.5

Page 4
additional samples from Plaintiff. [id. at 14].
On December 8, 2014, DPS issued a lab
report in which the analyst concluded that
Plaintiff signed the grade change form. [Id. at
29].
On January 5, 2015, Sgt. Gabbert arrested
Plaintiff under authority of an arrest warrant
obtained from a City of Brownsville
Municipal Magistrate Judge ("magistrate").
[Id. at 30]. In the warrant affidavit he
provided to the magistrate, Sgt. Gabbert
listed Texas Penal Code § 42.06, Texas' "false
alarm" statute, as the statute the Plaintiff
had violated. [Gabbert Aff., Doc. No. 25-1 at
27, Dec. 31, 2014]. Under§ 42.06:
A person commits an offense if he
knowingly initiates, communicates or
circulates a report of a present, past, or
future bombing, fire, offense, or other
emergency that he knows is false or
baseless and that would ordinarily:
(1) cause action by an official or volunteer
agency
organized
to
deal
with
emergencies;
(2) place a person in fear of imminent
serious bodily injury; or(
3) event or interrupt the occupation of a
building, room, place of assembly, place
to which the public has access, or
aircraft, automobile, or other mode of
conveyance.
Tex. Pen. Code § 42.06. The offense is a Class
A misdemeanor, and a state jail felony if the
report is related to an emergency involving a
public or private institution of higher
learning, or a public primary or secondary




App.6

school. Id. According to Plaintiff, she was
processed into the city jail and released the
same day without seeing a magistrate judge.
The Plaintiffs criminal charge was dismissed
on June 30, 2015 because the two-year
statute of limitations on the offense had
expired. [Pl.'s Ex. 10, Doc. No. 27-11 at 2].
Sgt. Gabbert's warrant affidavit listed the
offense date as February 11, 2013. [Gabbert
Aff., Doc. No. 25-1 at 27].
The Plaintiff subsequently brought this
suit alleging violations of her First and
Fourth Amendment rights under 42 U.S.C. §
1983 and a conspiracy claim under 42 U.S.C.
§ 1985(2). The Plaintiff claims that Sgt.
Gabbert knowingly and deliberately, or with
a reckless disregard
Page 5
for the truth, made false statements to secure
the warrant, and that those false statements
were material to the finding of probable cause
for Plaintiff's arrest (Fourth Amend-ment
false arrest/malicious prosecution claim). The
Plaintiff also alleges that BISD and Sgt.
Gabbert conspired against Plaintiff to deprive
Plaintiff of her constitutional and statutory
rights (conspiracy claim). Finally, Plaintiff
claims that BISD and Sgt. Gabbert retaliated
against Plaintiff's expression of protected
speech (First Amendment retaliation claim).
II. Legal Standard
Summary judgment is warranted "if the
movant shows that there is no genuine
dispute as to any material fact and the
movant is entitled to judgment as a matter of
law." Fed. R. Civ. P. 56(a). "The movant bears




App.7

the burden of identifying those portions of the
record it believes demonstrate the absence of
a genuine issue of material fact." Triple Tee
Golf, Inc. v. Nike, Inc., 485 F.3d 253, 261 (5th
Cir. 2007) (citing Celotex Corp. v. Catrett,
477 U.S. 317, 322-25 (1986)). Once a movant
submits a properly supported motion, the
burden shifts to the non- movant to show that
the Court should not grant the motion.
Celotex Corp., 477 U.S. at 321-25.
The non-movant then must provide specific
facts showing that there is a genuine dispute.
Id. at 324; Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986).
A dispute about a material fact is genuine if
"the evidence is such that a reasonable jury
could return a verdict for the nonmoving
party." Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). The Court must draw
all reasonable inferences in the light most
favorable to the nonmoving party in deciding
a summary judgment motion. Id. at 255. The
key question on summary judgment is
whether a hypothetical, reasonable factfinder
could find in favor of the nonmoving party. Id.
at 248.
Page 6
III. Analysis
(A) 42 U.S.C. § 1983 False Arrest Claim
Against Sgt. Gabbert
1. Has Plaintiff Raised a Fact Issue as to
whether Sgt. Gabbert Knowingly or
Recklessly Misrepresented a Material
Fact in the Warrant Affidavit?




App.8

The claim of false arrest is a constitutional
tort which implicates the guarantees of the
Fourth
and
Fourteenth
Amendments.
Martinez v. Klevenhagen, 52 F.3d 1068 (5th
Cir. 1995). To establish that Sgt. Gabbert
violated the Plaintiffs constitutional rights by
the arrest, Plaintiff must show that Sgt.
Gabbert lacked probable cause to arrest her.
See Haggerty v. Tex. S. Univ., 391 F.3d 653,
655 (5th Cir. 2004). "If there was probable
cause for any of the charges made ... then the
arrest was supported by probable cause, and
the claim for false arrest fails." Wells v.
Bonner, 45 F.3d 90, 95 (5th Cir. 1995). The
court may make its own legal determination
of probable cause in a§ 1983 claim. Garris v.
Rowland, 678 F.2d 1264, 1270 (5th Cir. 1982).
Nevertheless, where facts relied upon to show
probable cause in a § 1983 action are
controverted, they must be resolved by the
jury before any such legal determination can
be made. Id.
Pursuant to Franks v. Delaware, 438 U.S.
154 (1978), a Fourth Amendment violation
may be established where an officer
intentionally, or with reckless disregard for
the truth, includes a false statement in a
warrant application. Kohler v. Englade, 470
F.3d 1104, 1113 (5th Cir. 2006). In the
context of a§ 1983 false arrest claim, an
officer is liable for swearing to false
information in an affidavit in support of a
search warrant provided that: (1) that the
officer knowingly, or with reckless disregard
for the truth, provided false information to
secure the arrest warrant and (2) the warrant
application would not have been sufficient to
establish probable cause without the false




App.9

statements. Freeman v. County of Bexar, 210
F.3d 550, 553
Page 7
(5th Cir. 2000) (citing Franks, 438 U.S. at
171). Whether an officer knowingly, or with
reckless disregard for the truth, provided
false statements to secure a warrant affidavit
is a question of fact for the jury. Johnson v.
Norcross, 565 Fed. Appx. 287,289 (5th Cir.
2014)
The Plaintiff alleges that Sgt. Gabbert1
misrepresented a key fact in the warrant he
submitted to the magistrate-specifically-that
Plaintiff circulated a report which was false
and baseless. [Doc. No. 2 at 6; Doc. No. 44 at
18]. To secure a warrant for Plaintiff's arrest,
Sgt. Gabbert averred that Plaintiff "initiat[ed] and communicat[ed] a report that [he]
knew was 'false and baseless'" which caused
Sgt. Gabbert to "initiate an investigation"
into the grade change allegations. [Gabbert
Aff., Doc. No. 25-1 at 27]. Sgt. Gabbert
further averred that Plaintiff "circulated a
report that was false and baseless which in
tum caused BISD Police investigators to seize
several public school computers and
documents for forensic reviews." [Id.] The
Plaintiff identifies deposition testimony in
which Sgt. Gabbert admits that Plaintiff
never filed any report with law enforcement
which subsequently caused Sgt. Gabbert to
initiate an investigation into a potential

ͳ There

is no evidence that was provided to the Court suggesting that anyone else but Sgt. Gabbert drafted or assisted in
drafting the affidavit submitted to the magistrateǤ




App.10

forgery related to the grade change. [See
Gabbert Dep., 61:5-12, Oct. 6, 2016].
The Plaintiff's grievance filed with BISD
was not the catalyst for the "false report"
investigation. Sgt. Gabbert testified that he
was told to initiate the investigation by
BISD's director of human resources after a
local news station broke the grade change
story with the help of the anonymous source.
[Id. at 10:14-25, 11:1-3]. Sgt. Gabbert does
not even reference the grievance in his
warrant affidavit. [Gabbert Aff., Doc. No. 25-1
at 27]. The Plaintiff has provided competent
summary judgment to raise a fact issue as to
whether Sgt. Gabbert knowingly submitted
false statements in his warrant affidavit.
Page 8
The Defendants argue that despite these
deficiencies, their Motion should still be
granted because Sgt. Gabbert did have
probable cause for at least one crime to arrest
Plaintiff. Sgt. Gabbert does refer to the
alleged crime committed by Plaintiff as an
offense of "False Report" twice in the warrant
affidavit. [Id.] Under Texas' "false report"
statute, a person who, with intent to deceive,
knowingly makes a false statement that is
material to a criminal investigation to a
peace officer may be guilty of a Class B
misdemeanor. Tex. Pen. Code § 37.08. Sgt.
Gabbert averred that Plaintiff told him that
her signature on the grade change form was
forged, an allegation that was contradicted by
DPS's handwriting analysis report. [Gabbert
Aff., Doc. No. 25-1 at 27]. Thus, Sgt. Gabbert
arguably had probable cause to arrest
Plaintiff under § 37.08.




App.11

Nevertheless, Sgt. Gabbert averred that
Plaintiff allegedly communicated a false
report on February 11, 2013. [Gabbert Aff.,
Doc. No. 25-1 at 27]. The Plaintiff
transmitted the alleged false statement to
Sgt. Gabbert on September 24, 2013. [Id.].
Clearly Sgt. Gabbert was not referring to
Plaintiffs statement to him as the "False
Report" he referenced in his warrant
affidavit. Sgt. Gabbert was instead referring
to the date the grade change form was
submitted. [See Defs.' Ex. A, Doc. No. 25-1 at
32].
Moreover, Sgt. Gabbert arrested Plaintiff
for a more severe offense than one punishable
under § 37.08. Sgt. Gabbert averred in his
warrant affidavit that the offense Plaintiff
allegedly committed under Tex. Pen. Code§
42.06 carried a penalty of a Class A
misdemeanor. [Gabbert Aff., Doc. No. 25-1 at
27]. Punishment for a Class A misdemeanor
may include jail time for up to one year. Tex.
Pen. Code § 12.21. Texas' false report crime
under § 37.08 is a Class B misdemeanor, Id. §
37.08, and is punishable for confinement in
jail for a maximum of 180 days. Id. § 12.22.
Page 9
Even if the false statements in the warrant
affidavit were not made knowingly, Sgt.
Gabbert may have provided them recklessly.
The false alarm statute was an obviously
cumbersome fit on its face for the particulars
of Plaintiff's arrest. Setting aside the fact
that the statute applies only to emergent
situations, which did not exist, Sgt. Gabbert
could not pinpoint any report Plaintiff filed
with law enforcement or a volunteer agency




App.12

which satisfies the statute because Plaintiff
never made one. [See Gabbert Dep., 61:5-12].
The Court is convinced that Plaintiff has
adequately raised a fact issue as to whether
Sgt. Gabbert recklessly included a material
misrepresentation in the warrant affidavit he
submitted to the magistrate. See United
States v. Alvarez, 127 F.3d 372, 374-75 (5th
Cir. 1997) (finding that an officer acted with
reckless disregard when the officer submitted
a warrant affidavit under a Texas statute
that criminalized "sexual conduct" with a
minor where the evidence of the crime was
limited to a one-second video clip of a minor
female exposing her breast).
The Plaintiff has raised a triable issue of
fact as to the first prong of the Franks
analysis. Sgt. Gabbert may have simply been
mistaken when he submitted the warrant
affidavit to the magistrate judge, but the mixup may have been purposeful, or a product of
reckless
disregard.
This
question
is
significant, and its resolution is tasked to the
factfinder. As to the second part of the
Franks analysis, the Court must decide
whether, absent the misleading statements,
the warrant application would have been
sufficient to establish probable cause. Under
the test established by Franks, even if Sgt.
Gabbert included false or misleading
statements in his affidavit, such statements
would not be of issue unless those statements
were material, or necessary, to a finding of
probable cause.
Sgt. Gabbert's averment that Plaintiff was
responsible for "initiating and communicating a report that was 'false and baseless"' is




App.13

the crux of false alarm crime. [Gabbert Aff.,
Doc. No.
Page 10
25-1 at 27]. Sgt. Gabbert averred that it was
Plaintiff's "report" that caused BISD Police
investigators to "initiate an investigation"
into
the
crime
of
tampering
with
governmental records. [Id.] It is difficult to
postulate how Sgt. Gabbert could have
probable cause to arrest someone under the
false alarm statute without including the
very statement which transforms Plaintiffs
action into the crime of false alarm. If the
offending statements were removed, there
would be no false alarm crime to charge, and
a magistrate could not make a determination
that Plaintiff had committed the false alarm
offense.
As noted earlier in the opinion,
Sgt.
Gabbert may have had probable cause to
arrest Plaintiff under Texas' false report
statute (Tex. Pen. Code § 37.08), and he did
include facts in his warrant affidavit
suggesting that Plaintiff submitted a false
statement which was material to Sgt.
Gabbert's investigation. [Gabbert Aff., Doc.
No. 25-1 at 27]. Relying primarily on
Devenpeck v. Alford, 543 U.S. 146 (2004),
Defendants argue that as a matter of law, as
long as Sgt. Gabbert included sufficient facts
in the warrant affidavit to arrest Plaintiff for
any crime, the warrant affidavit Sgt. Gabbert
submitted was constitutionally sufficient
even if it referenced the wrong crime (the
false alarm offense under Tex. Pen. Code §
42.06). In a somewhat related argument, one
that is closely intertwined with the issue of




App.14

qualified immunity addressed later in the
opinion, Defendants also argue that because
Sgt. Gabbert had probable cause for Plaintiffs
warrantless arrest pursuant to the false
report offense, Sgt. Gabbert's arrest of Plaintiff is constitutionally sufficient notwithstanding the warrant affidavit he submitted
to the magistrate.
In Devenpeck, a police officer, one of the
petitioners, arrested the respondent for
surreptitiously videotaping the officer at a
traffic stop-an act that the officer erroneously
believed was a crime under Washington's
Privacy Act. See Devenpeck, 543 U.S. at 150151. There were alternate grounds to
establish probable cause for respondent's
arrest under a statute
Page 11
criminalizing the impersonation of a police
officer. See id. at 150. The officer knew that
respondent's car had flashing headlights, that
the respondent's radio was tuned to the
county police band, and that the respondent
had handcuffs and a hand-held police scanner
in his car. Id. at 149. Nevertheless, the officer
informed the respondent he was under arrest
for a violation of the Privacy Act only. See id.
at 156.
The respondent subsequently asserted a §
1983 claim for false arrest in federal district
court, arguing that the officer did not have
probable cause to arrest him for conduct that
was not considered a crime in the state. See
id. at 151. The jury found that there was
probable cause motivating respondent's
arrest, and reached a verdict for the officer.
Id The Ninth Circuit reversed, finding that no




App.15

evidence supported the jury's verdict. Id at
152. The circuit court reasoned that the
officer could not have had probable cause for
the arrest because the officer informed the
respondent that he was under arrest for a
violation of the Privacy Act only, an offense
that did not actually criminalize the
videotaping of an officer. See id
The Supreme Court rejected the Ninth
Circuit's restriction that limited the probable
cause inquiry to the stated reason for the
arrest. The Court explained that "an
arresting officer's state of mind (except for
the fact that he knows) is irrelevant to the
existence of probable cause." Id at 153. The
Court ruled that an arresting officer's
"subjective reason[s] for making the arrest
need not be the criminal offense as to which
the known facts provide probable cause." Id
Thus, per Devenpeck, as long as an arresting
officer has sufficient probable cause to arrest
a suspect for any crime, the stated reason for
the arrest has no bearing on its
constitutionality.
The Supreme Court pointed out what it
perceived as a clear absurdity if the constitutionality of an arrest were to hinge on the
stated reason for the detention: a knowledgeable officer's arrest would be valid while
an arrest made by a rookie in precisely the
Page 12
same circumstances would not. Id. at 154.
The Court noted that while it was certainly
good practice to inform a person of the reason
of their arrest at the time they are taken in
custody, there was no constitutional
requirement to do so. Id. at 155.




App.16

Devenpeck, however, addressed only a
warrantless arrest. The Defendants do not
identify any authority extending Devenpeck
to a situation where a police officer secures a
warrant for an arrest through false
statements. The Fifth Circuit has, postDevenpeck, faced the question of whether
probable cause is required as to the exact
crime charged in the warrant, but has yet to
provide an answer. See Johnson v. Norcross,
565 Fed. Appx. 287, 290 n.1 (5th Cir. 2014)
(declining to rule on whether Devenpeck
applied to arrests made pursuant to a
warrant). The Fifth Circuit has further
opined that the Devenpeck standard may be
different when a magistrate is deceived in
order to obtain a warrant. See Cole v. Carson,
802 F.3d 752, 764 (5th Cir. 2015), cert.
granted, Judgment vacated sub nom. Hunter
v. Cole, 137 S. Ct. 497, 196 L. Ed. 2d 397
(2016). In a non-precedential opinion, the
Circuit has characterized as "dubious" the
argument "that an officer can give a
knowingly false affidavit and avoid liability
by the fortuity that, after the fact, he may be
able to argue some other basis for the arrest."
Deleon v. City of Dallas, 345 Fed. Appx. 21,
23 n.2 (5th Cir. 2009)
The Supreme Court in Devenpeck did not
fundamentally change its longstanding
precedent as outlined in Franks. Under the
first prong of the Franks test, a defendant
must show that a false statement was
knowingly, or with reckless disregard for the
truth, included in a warrant affidavit. In
contrast to the bedrock principle clarified for
warrantless arrests by Devenpeck, the
mindset of an officer is clearly relevant in a




App.17

Franks challenge to a warrant affidavit. As
to the second part of the Franks test, a

misrepresentation in an affidavit may be
excused where there is sufficient probable
cause for the crime charged without the

Page 13
misrepresentation.
The Defendants have
alerted the court to no binding precedent
under Franks that allows for a warrant to be
saved if the probable cause exists for any
other crime the suspect may have committed.
"Warrants inevitably take some time for
police officers or prosecutors to complete and
for magistrate judges to review." Missouri v.
McNeely, 133 S. Ct. 1552, 1562 (2013).
Warrant affidavits are "normally drafted by
nonlawyers in the midst or haste of a
criminal investigation," and courts rightfully
should give a pass on "[t]echnical requirements of elaborate specificity." United States
v. Ventresca, 380 U.S. 102, 108 (1965). A false
statement submitted to secure a warrant
affidavit is by no means a technical
requirement and deserves no comparable
leniency. This is especially true for the facts
at bar where there is no evidence of any
exigent circumstances which demanded that
Sgt. Gabbert rush to arrest Plaintiff. In fact,
Plaintiff was not arrested for almost two
years after the date pinpointed by Sgt.
Gabbert.
The Defendant would have this Court read
Devenpeck to hold that the conduct of an
arresting officer who knowingly or recklessly
submits a false statement a magistrate judge
should be excused if the officer's warrant
affidavit fortuitously supports another




App.18

unidentified crime, or if the arresting officer
could have arrested the suspect without a
warrant. The Court, like the Fifth Circuit,
finds Defendants' argument "dubious." Such a
constitutional bail-out renders the Fourth
Amendment's requirement that a warrant not
issue but "upon probable cause, supported by
Oath or affirmation" a mere nullity. This
Court does not read the ruling in Devenpeck
to fundamentally alter the precedent set in
Franks as far as that opinion applies to
arrests made under the authority of a
warrant secured through knowing or reckless
false averments.
Page 14
The Court concludes that without the
alleged misrepresentation that Plaintiff circulated or initiated a report, the warrant
application would not have been sufficient to
show probable cause. The Plaintiff has raised
an issue of triable fact as to whether Sgt.
Gabbert knowingly, or with reckless disregard, misrepresented material facts in the
affidavit he submitted to secure a warrant for
Plaintiffs arrest.
2. Does the Independent Intermediary
Doctrine Insulate Sgt. Gabbert from
Liability?
Under the independent intermediary
doctrine, "even an officer who acted with
malice ... will not be liable if the facts
supporting the warrant or indictment are put
before an impartial intermediary such as a
magistrate or grand jury, for that intermediary's 'independent' decision 'breaks the
causal chain' and insulates the initialing
party." Hand v. Gary, 838 F.2d 1420, 1427




App.19

(5th Cir. 1988) (quoting Smith v. Gonzales,
670 F.2d 522, 526 (5th Cir. 1982)).
Nevertheless, the chain of causation is
broken only where all the facts are presented
to the independent intermediary and the law
enforcement official does not to withhold or
misrepresent any pertinent information to
the independent intermediary. Id. at 1428.
"Any misdirection of the magistrate or the
grand jury by omission or commission
perpetuates the taint of the original official
behavior." Id.
"[M]ere allegations of 'taint,' without more,
are insufficient to overcome summary judgment." Cuadra v. Houston lndep. Sch. Dist.,
626 F.3d 808, 813 (5th Cir. 2010). The
plaintiff must show that the officer knowingly
submitted a false statement, or did so in
reckless disregard for the truth. Anderson v.
City of McComb, Miss., 539 Fed. Appx. 385,
387 (5th Cir. 2013). Whether an independent
intermediary's findings were tainted by a
false or misleading statement by an officer is
a question of fact for the jury. See Buehler v.
City of Austin/Austin Police Dep't, 824 F.3d
548, 554 (5th Cir. 2016), cert. denied sub
nom. Buehler v. Austin Police
Page 15

Dept., 16-729, 2017 WL 1366734 (U.S. Apr.

17, 2017) (clarifying that a determination as
to whether the "taint" exception to
independent intermediary doctrine applies is
a triable question of fact).
As noted above, there is a fact question as
to whether Sgt. Gabbert knowingly or
recklessly misrepresented material statements in the warrant affidavit he submitted




App.20

to the magistrate judge. Thus, the
independent intermediary doctrine does not
bar Plaintiffs false arrest claim at this stage
in the proceedings.
3. Is Sgt. Gabbert Entitled to the Defense
of Qualified Immunity?
Qualified immunity shields government
officials "from liability for civil damages
insofar as their conduct does not violate
clearly established statutory or constitutional
rights of which a reasonable person would
have known." Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982). Determining whether a
government official may be clothed in the
defense of qualified immunity involves a twostep process. "First, a court must decide
whether a plaintiffs allegation[s], if true,
establishes a violation of a clearly-established
right." Hernandez ex rel. Hernandez v. Tex.
Dep't of Protective & Regulatory Servs., 380
F.3d 872, 879 (5th Cir. 2004). Second, "a court
must decide whether the conduct was
objectively reasonable in light of clearly
established law at the time of the incident."
E.A.F.F. v. Gonzalez, 600 Fed. Appx. 205, 209
(5th Cir. 2015), cert. denied, 135 S. Ct. 2364
(2015). A defendant's assertion of qualified
immunity "alters the usual ... burden of
proof." Trent v. Wade, 776 F.3d 368, 376
(quoting Brown v. Callahan, 623 F.3d
249,253) (5th Cir. 2010)). The plaintiff thus
bears the burden of proof to show "a genuine
and material dispute as to whether the
official is entitled to qualified immunity." Id.
Immunity ordinarily should be decided by
the court long before trial. Hunter v. Bryant,




App.21

502 U.S. 224, 228 (1991). Qualified immunity
is "an immunity from suit rather than a mere
Page 16
defense to liability ... it is effectively lost if a
case is erroneously permitted to go to trial."
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985)
(emphasis deleted). Where there remain
disputed issues of material fact related to
immunity, the jury, if properly instructed,
may decide the question. Snyder v.
Trepagnier, 142 F.3d 791,800 (5th Cir. 1998)
(quoting Presley v. City of Benbrook, 4 F.3d
405, 410 (5th Cir. 1993)) (internal quotation
marks omitted). The denial of a motion for
summary judgment based on qualified
immunity is immediately appealable under
the collateral order doctrine to the extent that
it turns on an issue of law. Flores v. City of
Palacios, 381 F.3d 391, 393 (5th Cir. 2004)
(quoting Mitchell, 472 U.S. at 530) (internal
quotation marks omitted).
The right to be free from arrest without
probable cause is a clearly established
constitutional right. Mangieri v. Clifton, 29
F.3d 1012, 1016 (5th Cir. 1994). Thus, the
Court must decide whether Sgt. Gabbert's
conduct was "objectively unreasonable" in
light of clearly established law. Crostley v.
Lamar County, Texas, 717 F.3d 410, 422 (5th
Cir. 2013). The court determines whether an
officer's conduct was objectively unreasonable
after taking into account the totality of the
circumstances at the time the arrest were
made. Id.
Knowingly or recklessly submitting a
warrant affidavit which contains false
statements is not objectively reasonable




App.22

conduct in light of clearly established law.
See Hart v. O'Brien, 127 F.3d 424, 448-49
(5th Cir. 1997), abrogated on other grounds
by Kalina v. Fletcher, 522 U.S. 118 (1997).
"In the context of Fourth Amendment false
arrest claims and the issue of probable cause,
[e]ven law enforcement officials who
reasonably, but mistakenly, conclude that
probable cause is present are entitled to
immunity.'' Id. (quoting Gibson v. Rich, 44
F.3d 274, 277 (5th Cir. 1995))(internal
quotation marks omitted). In considering the
totality of the circumstances, the court must
disregard any false statements in the
affidavit supporting the warrant that are
Page 17
made knowingly or intentionally, or with
reckless disregard for the truth. Hale v. Fish,
899 F.2d 390,400 & n. 3 (5th Cir. 1990) (citing
Franks , 438 U.S. at 154).
Obviously, the possibility remains that Sgt.
Gabbert simply made a mistake. If the
eventual factfinder were to decide as such,
Sgt. Gabbert would undoubtedly be shielded
by qualified immunity. See Garris, 678 F.2d
1273 (finding that a police officer was entitled
to qualified immunity where the jury found
that the officer's material omission in a
warrant affidavit was the product of negligence or innocent mistake). As it stands,
there remains an issue of triable fact as to
whether Sgt. Gabbert knowingly, or with
reckless disregard, misrepresented material
facts in the warrant affidavit. The Defendants' Motion is denied with respect to
immunity as to Plaintiffs false arrest claim
against Sgt. Gabbert.




App.23

B. 42 U.S.C. § 1983 Malicious Prosecution
Claim Against Sgt. Gabbert
The Fifth Circuit has ruled that there is
"no such freestanding constitutional right to
be free from malicious prosecution exists."
Castellano v. Fragozo, 352 F.3d 939, 945 (5th
Cir. 2003). The pertinent part of Castellano
reads:
The initiation of criminal charges
without probable cause may set in force
events that run afoul of explicit
constitutional protect-tions-the Fourth
Amendment if the accused is seized and
arrested,
for
example,
or
other
constitutionally secured rights if a case
is further pursued. Such claims of lost
constitutional rights are for violation of
rights locatable in constitutional text,
and some such claims may be made
under 42 U.S.C. § 1983. Regardless, they
are not claims for malicious prosecution
and labeling them as such only invites
confusion.
352 F.3d at 954. In Deville v. Marcantel, the
Fifth Circuit further explained that a
malicious
prosecution
claim
is
not
"independently cognizable:"
Instead, it must be shown that the
officials violated specific constitutional
rights in connection with a "malicious
prosecution." For example , "the
initiation of criminal charges without
probable cause may set in force events
that run afoul of the ... Fourth
Amendment if the accused is seized and
arrested ... or other constitutionally
secured rights if a case is further
pursued." However , these " are not




App.24

claims for malicious prosecution."
Accordingly, plaintiffs' claim under§
1983 for " malicious prosecution" in
Page 18
respect to the May 2006 arrest is not
independentlycognizable, and defendants
are entitled to summary
judgment on
that claim."
567 F.3d 156, 169 (5th Cir. 2009) (emphasis
added). Per Castellano, Defendants are
entitled to summary judgment for Plaintiffs
malicious prosecution claim.
C. 42 U.S.C. § 1983 Retaliation Claims
Against Sgt. Gabbert and BISD
"[T]he First Amendment prohibits not only
direct limitations on speech but also adverse
government action against an individual
because of her exercise of First Amendment
freedoms." Colson v. Grohman, 174 F.3d 498,
508 (5th Cir. 1999). The Plaintiff claims that
she was retaliated against for filing a
grievance and engaging in protected speech
by BISD administrators. Liability under§
1983 may not be predicated on respondeat
superior liability. A local government entity
may be sued "if it is alleged to have caused a
constitutional tort through a policy statement, ordinance, regulation, or decision
officially adopted and promulgated by that
body's officers:' City of St. Louis v.
Praprotnik, 485 U.S. 112, 121 (1988) ( citing

Monell v. New York City Dept. of Social
Services, 436 U.S. 658, 690 (1978)). The

Plaintiff has identified no such policy
statement, ordinance, regulation, or decision
to impose §1983 liability on BISD for
Plaintiffs First Amendment retaliation claim.




App.25

The Plaintiff also asserts a First Amendment retaliatory arrest claim against Sgt.
Gabbert.22 The Defendants repeat the same
arguments as to Plaintiffs false arrest claim
against Sgt. Gabbert: (1) that Sgt. Gabbert is
shielded by the independent intermediary
doctrine, and (2) that Sgt. Gabbert is entitled
to the defense of qualified immunity.
Page 19
As discussed earlier in the opinion, a fact
issue remains as to whether Sgt. Gabbert
knowingly or recklessly provided a false
statement to a magistrate judge and accordingly, there is a fact question as to whether
the independent intermediary's findings were
based on a tainted affidavit. Consequently,
the independent intermediary doctrine therefore does not shield Plaintiffs First Amendment retaliation claim at this juncture.
Moving to Defendants' assertion of the
qualified immunity defense, the Plaintiff
bears the burden of proof to show "a genuine
and material dispute as to whether the
official is entitled to qualified immunity."

ʹ         Ǧ
           
 Ǥ     ȋ Ȍ        
     ǡ ȋʹȌ      
   ǡ
ȋ͵Ȍ̵  
         Ǥ Benningfield
v. City of Houston,ͳͷ͹ Ǥ͵͵͸ͻǡ͵͹ͷȋͷǤͳͻͻͺȌǤ
         
  
Ǥ  Ǥ





App.26

Trent, 776 F.3d at 376. To establish that
Plaintiff was subjected to retaliation in
violation of her First Amendment rights,
Plaintiff must show: (1) that she was engaged
in constitutionally protected activity, (2) that
Sgt. Gabbert's actions caused her to suffer an
injury that would chill a person of ordinary
firmness from continuing to engage in that
activity , and (3) that Sgt. Gabbert's actions
were
substantially
motivated
against
Plaintiffs exercise of constitutionally protected conduct. Brooks v. City of W Point,
Miss., 639 Fed. Appx. 986, 999 (5th Cir. 2016)
(citing Keenan v. Tejeda, 290 F.3d 252,258
(5th Cir. 2002)).
The first issue is whether Plaintiffs internal employment grievance was constitutionally protected activity. To warrant constitutional protection, a private employment
grievance must be a matter of public concern.
See Borough of Duryea, Pa. v. Guarnieri, 564
U.S. 379, 399 (2011). "Whether an employee's
speech addresses a matter of public concern
must be determined by the content, form, and
context of a given statement, as revealed by
the whole record ." Connick v. Myers, 461
U.S. 138, 147-48 (1983). "When a public
employee speaks in his capacity as an
employee and addresses personal matters
such as personnel and employment disputes,
rather than in his capacity as a citizen on a
matter of public interest, his speech falls
outside the
Page 20
protection of the First Amendment." Salge v.
Edna /ndep. Sch. Dist., 411 F.3d 178, 186 (5th
Cir. 2005).




App.27

When the speech in question merely
touches on an element of private concern in a
broader context of a matter of public concern,
a court may conclude that the employee's
speech as a whole qualifies as a matter of
public concern. Id. Private speech made in
the backdrop of public debate may relate to
the public concern. Kennedy v. Tangipahoa
Par. Library Bd. of Control, 224 F.3d 359,
372 (5th Cir. 2000), abrogated on other
grounds by Bell Atl. Corp v. Twombly, 550
U.S. 544, 562-63 (2007). Furthermore, if
releasing the private speech to the public
would inform the populace of more than the
fact of an employee's employment grievance,
the content of the speech may be public in
nature. Id.
Looking to Plaintiffs grievance, part of
Plaintiffs "speech" certainly reflected a
matter of private concern. The Plaintiff
raised a complaint about a workplace
controversy which she claimed affected both
her work environment and health. [Pl.'s Ex.
9, Doc. No. 27-10 at 4]. Nevertheless, the
controversy she raised involved the unethical
conduct of administrators at Rivera High
School, a matter, if made public, would
obviously be of import to the community at
large.
Moreover, the Plaintiffs speech was
made in the backdrop of significant public
discussion. The Plaintiff filed a grievance on
May 29, 2013 and a grievance hearing was
held on August 6, 2013. On July 7, 2013,
Channel 4 News, a local network affiliate,
published a news story covering the alleged
grade change controversy which featured
statements by outraged parents of children at




App.28

Rivera High School. [Pl.'s Ex. 3, Doc. No. 274]. Given that the grievance hearing was
conducted in the backdrop of significant
public debate, the Court is convinced that
speech should not be subsumed to the
category of speech covering internal
Page 21
personnel disputes and working conditions.
The Plaintiffs speech was a matter of public
concern, and thus qualifies as constitutionally protected speech.
The Plaintiff, however, fails to satisfy the
second prong of the First Amendment
retaliation test. 42 U.S.C. § 1983 is a tort
statute, and "[a] tort to be to be actionable
requires injury." Ammons v. Baldwin, 705
F.2d 1445, 1448 (5th Cir. 1983). Obviously,
Plaintiff was arrested. Legally, a false arrest
may chill further speech by a person of
ordinary sensibilities. See Lacey v. Maricopa
County, 693 F.3d 896, 917 (9th Cir. 2012)
(citing Beck v. City of Upland. 527 F.3d 853,
871 (9th Cir. 2008)) ("[A]rresting someone in
retaliation for their exercise of free speech
rights is sufficient to chill speech is an
understatement.") (internal quotation marks
omitted).
Nevertheless, whether a person of ordinary
sensibility would be chilled by the alleged
retaliation is a mixed question of fact and
law. See Keenan, 290 F.3d at 260 (finding
that the district court erroneously ruled no
fact issue precluded summary judgment
where the plaintiffs included uncontroverted
affidavits averring that they curtailed their
protected speech activities in response to
their retaliatory prosecutions). To that effect,




App.29

Plaintiff does not provide summary judgment
evidence indicating that her protected speech
activities were chilled in any manner in
response to her arrest. Counsel's statements
are not competent
summary
judgment
evidence. See Fed. R. Civ. P. 56(c)(l)(A). A
simple affidavit from Plaintiff would have
sufficed. The Plaintiff has not created a fact
issue as to a chilling effect on her post-arrest
speech.
The Plaintiff has not bet her burden on the
third prong of the First Amendment
retaliation test. In all likelihood, there is no
smoking gun in Sgt. Gabbert's case files that
would definitively establish the grievance as
a substantially motivating factor for the
arrest. Certainly, Sgt. Gabbert initiated the
grade change investigation after the
grievance was filed, and Sgt. Gabbert's case
Page 22
files indicate that he knew of Plaintiffs
grievance. [See Defs.' Ex. A, Doc. No. 25-1 at
6]. Nevertheless, the Plaintiff has not
provided any competent summary judgment
to suggest that Sgt. Gabbert's actions were in
any way motivated against Plaintiffs exercise
of protected speech. In fact, all of the
evidence supports the opposite conclusion.
Sgt. Gabbert did not take any action until
DPS informed him that in its opinion, the
grade change form was executed by Plaintiff.
This was over a year-and-a-half after Sgt.
Gabbert learned about the grievance.
The Court asked the parties in an in-court
hearing to brief the question of whether the
Plaintiffs Fourth Amendment false arrest
claim and Plaintiffs First Amendment retal-




App.30

iatory arrest claim are factually mutually
exclusive [Summ. J. Hr'g Tr. 39, Mar. 2,
2017]. According to the summary judgment
evidence, Sgt. Gabbert began investigating
Plaintiff after being requested to do so by
BISD's director of human resources-not
because of Plaintiffs grievance. [Defs.' Ex. A,
Doc. No. 25-1 at 5]. Obviously, this is the very
basis of Plaintiffs claim that Sgt. Gabbert's
warrant affidavit contains false statements.
Had the evidence shown that the arrest was
motivated by Plaintiffs grievance, Defendants
would have had a better argument that the
warrant affidavit does not include false
statements, but merely contains mistakes.
The briefing submitted by both parties did
not adequately address the Court's question.
Notwithstanding the fact that Plaintiffs
claims are potentially incompatible, the
Plaintiff has not provided competent
summary judgment to create an issue of
triable fact as to whether Sgt. Gabbert's
conduct caused Plaintiff to suffer an injury
that would chill constitutionally protected
speech or as to whether Sgt. Gabbert's actions
were
substantially
motivated
against
Plaintiffs
exercise
of
constitutionally
protected speech. As Plaintiff has not met her
burden to bring forth competent summary
judgment evidence that Sgt. Gabbert's
conduct violated her First Amendment
constitutional rights, a discussion of whether
Sgt. Gabbert acted in an objectively
Page 23
unreasonable manner is unnecessary. Sgt.
Gabbert is entitled to the defense of qualified
immunity against Plaintiffs retaliation claim.




App.31

The Defendants' Motion is granted as to
Plaintiffs First Amendment retaliation claim
against both Sgt. Gabbert and BISD.
D. 42 U.S.C. § 1985(2) Conspiracy Claim
against Sgt. Gabbert and BISD
The Plaintiff claims that Sgt. Gabbert and
BISD conspired against Plaintiff to deprive
Plaintiff of her constitutional rights. The
Defendants argue that the longstanding rule
in the Fifth Circuit that a corporation (or
single legal entity) can not conspire with its
own agents or employees-known as the intracorporate conspiracy doctrine-bars Plaintiffs
claim. Hilliard v. Ferguson, 30 F.3d 649, 651
(5th Cir. 1994). Citing to Reich v. Lopez, 38 F.
Supp. 3d 436, 465 (S.D.N.Y. 2014), the
Plaintiff asserts that because there were
members of the conspiracy who were not
agents or employees of BISD, the
intracorporate conspiracy doctrine does not
apply.
As the Court noted in the hearing on these
issues, for purposes of summary judgment,
the Plaintiff must provide some evidence that
there were in fact other members of the
conspiracy who were not agents or employees
of BISD. [See Summ. J. Hr'g Tr. 42]. In the
briefing Plaintiff submitted to the Court after
the hearing, Plaintiff simply pointed out that
she pleaded that another party outside the
organization was involved in the conspiracy.
[Doc. No. 44 at 20]. Assuming that Reich
actually stands for the exception to the
intracorporate conspiracy doctrine Plaintiff
asserts and that such an exception is even
recognized by the Fifth Circuit, the Plaintiff




App.32

provides no competent summary judgment
evidence pertaining to the involvement of any
persons in the alleged conspiracy aside from
BISD agents or employees.
Moreover, Plaintiff has not even properly
pleaded a § 1985(2) case. The first clause of
§ 1985(2) prohibits conspiracies that interfere
with the administration of justice in federal
court. Daigle v. Gulf State Utilities Co., Local
Union No. 2286, 794 F.2d 974, 979 (5th Cir.
1986). The
Page 24
Plaintiff does not so argue-nor is there any
summary judgment evidence to indicate-that
this clause is applicable to Plaintiff's claim.
Id. The second clause prohibits conspiracies
that interfere with the administration of
justice in state court. Id. The second clause
of§ 1985(2) contains equal protection
language paralleled in § 1985(3). Id. The
Fifth Circuit is clear that § 1985(2), like §
1985(3), requires a showing of class-based
animus. Daigle, 794 F.2d at 979. The Plaintiff
has not pleaded nor has she presented any
facts pointing to the existence of a classbased conspiracy. The Defendants' Motion is
granted as
to
Plaintiffs
§ 1985(2)
conspiracy claim against Sgt. Gabbert and
BISD.
IV. Conclusion
The Defendants' Motion for Summary
Judgment [Doc. No. 25) is hereby granted as
to the 42 U.S.C. § 1983 malicious prosecution
claim, the 42 U.S.C. § 1985(2) conspiracy
claim, and the 42 U.S.C. § 1983 retaliation




App.33

claims. As to Plaintiffs sole remaining 42
U.S.C. § I983 false arrest claim against Sgt.
Gabbert, the Court hereby denies Defendants' Motion. There remains an issue of
triable fact as to whether Sgt. Gabbert
knowingly, or in reckless disregard of the
truth, submitted a false statement in the
warrant affidavit he used to secure Plaintiffs
arrest.
Signed this 26th day of May, 2017.
_____s/________________
Andrew S. Hanen
United States District Judge




App.34

APPENDIX B
Case: 17-40597 Document: 00514888033
Page: 1 Date Filed: 03/26/2019
United States Court of Appeals, Fifth Circuit
FILED March 26, 2019, Lyle W. Cayce,
Clerk
IN THE UNITED STATES COURT OF
APPEALSFOR THE FIFTH CIRCUIT
No. 17-40597
BLANCA ARIZMENDI,
Plaintiff - Appellee
v.
PATRICK GABBERT, Individually and in his
official capacity as Criminal Investigator,
Defendant - Appellant
Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINBOTHAM, SOUTHWICK,
and COSTA, Circuit Judges. PATRICK E.
HIGGINBOTHAM, Circuit Judge:
Blanca Arizmendi teaches high school
French in Brownsville, Texas.
Patrick
Gabbert, the school district’s criminal
investigator, swore out an affidavit in
support of a warrant for the arrest of Arizmendi for allegedly communicating a false
report. Arizmendi now sues Gabbert for false
arrest under 42 U.S.C. § 1983, contending
that Gabbert know-ingly or recklessly
misstated material facts in the affidavit.
Gabbert argues that he is entitled to




App.35

Summary judgment because even if he made
mater-ial false allegations in his affidavit,
the allegations also established probable
cause to arrest Arizmendi for a different
offense than the one for which he sought a
warrant. We conclude
Page 2
that the validity of the arrest could not be
saved by facts stated in the warrant
sufficient to establish probable cause for a
different charge from that sought in the
warrant, but Gabbert is entitled to qualified
immunity because this was not clearly
established at the time of his conduct. We
will therefore reverse the district court’s
denial of Gabbert’s motion for summary
judgment.
I
The arrest stemmed from a multi-year investigation into a high school “grade change
form.” Arizmendi taught the school principal’s niece. She alleges that beginning in
January 2013, the principal and the student’s
mother began pressuring her to raise the
student’s grade. A later review of the
student’s grades found that a grade change
form—appearing to have been completed and
signed by Arizmendi—had been submitted to
raise the student’s grade considerably in
Arizmendi’s class, tying her for the secondhighest GPA in her year. Arizmendi
maintains that she “never authorized,
accepted, [ ]adopted . . . . [or] signed any
grade change form.”
On June 14, 2013, Arizmendi filed an
administrative grievance form alleging that
the school principal forged Arizmendi’s




App.36

signature, falsified records, and illegally
changed his niece’s grade. An unknown
source leaked this information to the local
media, which covered the issue and the
resulting controversy.
On request by the school district’s director
of human resources in July 2013, Gabbert
began investigating whether someone had
illegally tampered with government records,
as prohibited by Texas Penal Code § 37.10.
As part of his investigation, he seized
documents and computers from the school.
He also interviewed Arizmendi on September
24, 2013. According to his case notes, when
he showed Arizmendi the original grade
change form, Arizmendi stated that she had
never signed the form and her signature had
been forged. A few
Page 3
days later, Arizmendi submitted a sworn
statement to Gabbert reiterating these
statements.
In December 2013, Gabbert sent the grade
change form and samples of Arizmendi’s
handwriting to the Texas Department of
Public Safety Crime Lab. The lab requested
additional handwriting samples and ultimately issued a report stating that
Arizmendi’s signature on the form was
legitimate. Upon receiving this information,
Gabbert “reclassified” his investigation to one
involving whether Arizmendi had filed a false
report in violation of Texas Penal Code §
42.06. Section 42.06, titled “False Alarm or
Report,” states that “[a] person commits an
offense if he knowingly initiates, communicates or circulates a report of a present, past,
or future bombing, fire, offense, or other




App.37

emergency that he knows is false or baseless
and that would ordinarily . . .cause action by
an official or volunteer agency organized to
deal with emergencies; . . . place a person in
fear of imminent serious bodily injury; or . . .
prevent or interrupt the occupation of a
building, room, place of assembly, place to
which the public has access, or aircraft,
automobile, or other mode of conveyance.”
“False alarm or report” is a Class A
misdemeanor punishable by up to a year in
jail.
Gabbert submitted an affidavit seeking an
arrest warrant for Arizmendi “for the offense
of False Report, a Class A misdemeanor.” He
stated that “on or about” February 11, 2013,
Arizmendi “intentionally and knowingly
[c]omitt[ed] the offense of False Report . . . by
initiating and communicating a report that
[she] knew was ‘false and baseless’ and causing the reaction of Law Enforcement to
initiate an investigation into the allegation of
[ ]Tampering with Governmental Records
(school records).” He also stated in the
affidavit that on September 24, 2013,
Arizmendi told him that her signature had
been forged on the grade change form, and
the Public Safety Crime Lab had later
“determin[ed] that Blanca Arizmendi signed
[her own] signature” on the form.
Page 4
In sum, Gabbert swore that Arizmendi had
“circulated a report that was false and baseless which in turn caused [school district
police investigators] to seize several public
school computers and documents for forensic
reviews.”




App.38

Upon approval of the warrant for
Arizmendi’s arrest for the crime of “false
report” committed on February 11, 2013,1
Gabbert arrested Arizmendi.
She was
processed into jail and released the same day.
Six months later, the District Attorney’s
Office dismissed the charges as barred by the
applicable two-year statute of limitations.
Arizmendi then sued Gabbert
for false
arrest, alleging that he “knowingly and
intentionally submitted an affidavit for an
arrest warrant that contained false and
misleading information in order to manipulate the Magistrate Judge” into issuing the
warrant.2 Gabbert moved for summary
judgment, invoking qualified immunity. The
district court found a triable issue of material
fact as to whether Gabbert submitted a false
statement in his warrant affidavit with
knowing or reckless disregard for the truth; it
therefore denied him qualified immunity on
Arizmendi’s false arrest claim. Gabbert
appeals.
II

warrant authorized Arizmendi’s arrest for committing the
offense of “false report” on February 11, 2013. It did not identify
the specific section number under which
Arizmendi was to be arrested.
2 Arizmendi initially sued the school district in addition to
Gabbert and included claims for several other constitutional
violations. The district court granted summary judgment to the
defendants on every claim except the § 1983 false arrest claim
against Gabbert, including Arizmendi’s claims for malicious
prosecution, First Amendment retaliation, and conspiracy.
Arizmendi does not cross-appeal the denial of summary
judgment on those claims.
ͳThe




App.39

“Summary judgment is required if the
movant establishes that there are no genuine
issues of material fact and the movant is
entitled to judgment as a matter of law.”3
When a public official pleads a qualified
immunity defense,
Page 5
“[t]he plaintiff bears the burden of negating
qualified immunity, but all inferences are
drawn in [the plaintiff’s] favor.”4
“The doctrine of qualified immunity
protects government officials from civil
damages liability when their actions could
reasonably have been believed to be legal.”5 It
“protects all but the plainly incompetent or
those who knowingly violate the law,” and
applies “unless existing precedent . . . placed
the statutory or constitutional question
beyond debate.”6 “To overcome an official’s
qualified immunity defense, a plaintiff must
show that the evidence, viewed in the light
most favorable to him, is sufficient to
establish a genuine dispute ‘(1) that the
official violated a statutory or constitutional
right, and (2) that the right was clearly


v. Callahan, 623 F.3d 249, 253 (5th Cir. 2010) (citing
Fed. R. Civ. P. 56(c)).
4 Id. (citations omitted).
5 Morgan v. Swanson, 659 F.3d 359, 370 (5th Cir. 2011) (en
banc).
6 Id. at 371 (internal quotation marks omitted) (emphasis in
original).
͵Brown




App.40

established at the time of the challenged
conduct.’”7
“Although a denial of summary judgment
is typically unappealable, defendants have a
limited ability to appeal a denial of qualified
immunity under the collateral order
doctrine.”8 We have jurisdiction over such
appeals only “to the extent that the district
court’s order turns on an issue of law.”9 In
other words, we may “decide whether the
factual disputes are material . . . [and review]
the district court’s legal analysis as it
pertains to qualified immunity,” but may not
“review the genuineness of any factual
disputes.”10 “An officer challenges materiality
[by contending] that taking all the plaintiff’s
factual allegations as true[,] no violation of a
clearly established right was shown.”11
Page 6
III
Arizmendi argues that she has raised a
triable factual dispute over whether Gabbert
violated her Fourth Amendment rights. She
contends that once false statements are
excised from Gabbert’s warrant affidavit, it
did not support probable cause for the offense
for which she was arrested.


Cutler v. Stephen F. Austin State Univ., 767 F.3d 462, 469
(5th Cir. 2014) (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 735
(2011)) (internal quotation marks omitted).
8 Id. at 467 (emphasis in original).
9 Id. at 467–68 (quoting Kovacic v. Villareal, 628 F.3d 209, 211
(5th Cir. 2010)).
10 Id. at 468 (quoting Wyatt v. Fletcher, 718 F.3d 496, 502 (5th
Cir. 2013), and Kovacic, 628 F.3d at 211 n.1).
11 Winfrey v. Pikett, 872 F.3d 640, 643–44 (5th Cir. 2017)
(internal quotation marks omitted) (emphasis in original).
7




App.41

A
The Fourth Amendment guarantees “the
right of the people to be secure in their
persons . . . against unreasonable searches
and seizures . . . and [that] no warrants shall
issue, but upon probable cause.”12 A constitutional claim for false arrest, which
Arizmendi brings through the vehicle of §
1983, “requires a showing of no probable
cause.”13 Probable cause is established by
“facts and circumstances within the officer’s
knowledge that are sufficient to warrant a
prudent person, or one of reasonable caution,
in believing, in the circumstances shown,
that the suspect has committed, is
committing, or is about to commit an
offense.”14
In general, “[i]t is well settled that if facts
supporting an arrest are placed before an
independent intermediary such as a magistrate or grand jury, the intermediary’s
decision breaks the chain of causation for
false arrest, insulating the initiating party.”15
There is a qualification: the initiating party
may still be liable for false arrest “if the
plaintiff shows that the ‘deliberations of the
intermediary were in some way tainted by
the actions of the defendant.’”16 Chiefly
relevant here, thirty-five years before

12
13

U.S. Const. amend. IV

Club Retro, L.L.C. v. Hilton, 568 F.3d 181, 204 (5th Cir.

2009).
Id. (quoting Piazza v. Mayne, 217 F.3d 239, 245–46 (5th Cir.
2000)).
15 McLin v. Ard, 866 F.3d 682, 689 (5th Cir. 2017).
16 Id. (quoting Deville v. Marcantel, 567 F.3d 156, 170 (5th Cir.
2009)).
14




App.42

Gabbert obtained his warrant, Franks v.
Delaware established that even if an independent magistrate approves a warrant
application,“a defendant’s Fourth Amendment
Page 7
rights are violated if (1) the affiant, in
support of the warrant, includes ‘a false
statement knowingly and intentionally, or
with reckless disregard for the truth,’ and (2)
the allegedly false statement is necessary to
the finding of probable cause.”17
B
Arizmendi contends that even though an
independent magistrate approved the arrest
warrant, Gabbert is liable for false arrest
because he made intentional or reckless
misrepresentations in his warrant affidavit.
Specifically, she contests two statements
Gabbert swore to in his affidavit: that
Arizmendi “initat[ed] and communicat[ed] a
report that [she] knew was ‘false and
baseless’” on February 11, 2013, causing law
enforcement to “initiate an investigation” into
the grade change form, and that Arizmendi
“circulated a report that was false and
baseless which in turn caused [school district]
police investigators to seize several public
school computers and documents for forensic
reviews.”


Winfrey v. Rogers, 901 F.3d 483, 494 (5th Cir. 2018), on
petition for rehearing (quoting Franks v. Delaware, 438 U.S.
154, 155–56, 165 (1978)); see Hale v. Fish, 899 F.2d 390, 400–02
(5th Cir. 1990) (applying Franks to a § 1983 claim for arrest
without probable cause).
ͳ͹




App.43

The district court found a genuine factual
dispute over whether Gabbert intentionally
or recklessly submitted false statements in
his affidavit. It observed that while
Arizmendi filed an internal grievance form on
June 14, 2013, Gabbert instead alleged that
Arizmendi initiated and communicated a
“report” on February 11, 2013, that caused
law enforcement action including the
confiscation of files and computers. The
district court ultimately found that media
attention spurred Gabbert’s investigation,
not any action taken by Arizmendi. As for
Gabbert’s mental state, the court observed
that “Gabbert may have simply been
mistaken when he submitted the warrant
affidavit to
Page 8
the magistrate judge, but the mix-up may
have been purposeful, or a product of reckless
disregard.” Limited as we are in our jurisdiction to review the district court’s denial of
summary judgment, we accept its identification of a genuine dispute over whether
Gabbert knowingly or recklessly included
false statements in his warrant affidavit.
But Franks also requires the allegedly
false statements to have been material to the
finding of probable cause. We must “consider
the faulty affidavit as if [the] errors [or]
omissions were removed[,] . . . [and then]
examine the ‘corrected affidavit’ and
determine whether the probable cause for the
issuance of the warrant survives the deleted
false statements and material omissions.”18
After correcting the affidavit to exclude the

ͳͺǡͻͲͳ



Ǥ͵Ͷͻͷ


App.44

challenged statements, the affidavit alleges
that (1) on September 24, 2013, Gabbert met
with Arizmendi, who stated that her
signature had been forged on the grade
change form and that she had previously filed
a grievance against a school administrator for
falsifying her signature; and (2) a
Department of Public Safety handwriting
analysis later determined that Arizmendi
had signed her own name on the form.
It is unclear whether Gabbert argues on
this appeal that once the contested
allegations are excised from his warrant
affidavit, the affidavit supports probable
cause for the “false alarm or report” offense
for which Arizmendi was arrested.19 To the
extent that he does, we disagree. As relevant
here, a critical element of the “false alarm or
report” offense is that the defendant have
initiated or circulated a false report of an
“offense” or
.
Page 9
“emergency” that would ordinarily cause
official action.20 Excising the statements that
Arizmendi “initiat[ed] and communi-cat[ed] a
report that [she] knew was ‘false and
baseless’” and that the report “caused BISD
Police Investigators to seize several public

In oral argument, for example, Gabbert’s counsel conceded
that it was “obvious” that Gabbert should not have sought to
arrest Arizmendi for “false alarm or report” under Texas Penal
Code § 42.06 rather than “false report” under § 37.08. Gabbert
also appears to admit in his briefing that at least some of the
challenged statements were “misleading” and that he should
have sought a warrant under § 37.08.
ʹͲSee Tex. Pen. Code § 42.06.
19




App.45

school computers and documents for forensic
reviews,” it is difficult to see how the
remaining allegations established probable
cause for the specific offense of “false alarm
or report.”21
IV
Gabbert’s primary defense is that even if the
corrected warrant affidavit did not establish
probable cause for the “false alarm or report”
offense, he had probable cause to arrest
Arizmendi without a warrant for a different
offense. He suggests that there was probable
cause that Arizmendi had committed the
lesser offense of “false report” under Texas
Penal Code § 37.08, which states that “[a]
person commits an offense if, with intent to
deceive, he knowingly makes a false
statement that is material to a criminal
investigation and makes the statement to . . .
a peace officer.” As we have explained,
Gabbert also alleged in his affidavit that
Arizmendi told him in September 2013 that
she had not signed the grade change form,
and later handwriting analysis refuted

The offense of “false alarm or report” does not require a
showing that the report actually caused official action. But the
only suggestion in Gabbert’s affidavit that Arizmendi had
circulated a report that “would ordinarily” cause official action
comes from the false statements that Arizmendi’s report caused
the BISD police investigation. Without those allegations, the
affidavit could not establish probable cause for the offense, even
though it alluded to a grievance Arizmendi had filed and her
later statement to Gabbert that she had not signed the grade
change form.
ʹͳ




App.46

her claim.22 We agree that this was sufficient
to generate probable cause that
Page 10
Arizmendi violated § 37.08’s “false report”
offense when she met with Gabbert.23
The critical question is therefore whether
an officer who knowingly or recklessly
included false statements on a warrant

Arizmendi does not contest these statements.
Gabbert argues that the extent of his misconduct, if any, was
that he inadvertently cited the incorrect section number—in
other words, he meant to cite section 37.08, and instead cited
section 42.06. As we have explained, the district court
determined that Gabbert made other false statements. It also
suggested that Arizmendi had raised a genuine factual dispute
over whether Gabbert’s accusation that Arizmendi violated the
“false alarm or report” offense in section 42.06 was knowing or
reckless. The court observed that “false alarm or report” is a
more serious offense punishable by a longer prison sentence,
and that Gabbert’s affidavit closely tracked the elements of the
“false alarm or report” offense. Here too, we lack jurisdiction to
review the district court’s identification of a genuine factual
dispute
ʹ͵ The Supreme Court has established that in general, a claim
for false arrest cannot lie in the failure to obtain a warrant for
the arrest, at least for offenses committed in the arresting
officer’s presence. See Virginia v. Moore, 553 U.S. 164, 176
(2008) (“We conclude that warrantless arrests for crimes
committed in the presence of an arresting office are reasonable
under the Constitution, and that while States are free to
regulate such arrests however they desire, state restrictions do
not alter the Fourth Amendment’s protections.”). To be clear,
the issue here is not whether Gabbert could have arrested
Arizmendi without a warrant. It is whether once he obtained a
warrant, potentially in violation of Franks, he could
retroactively justify a warrant-based arrest by claiming that he
could have instead conducted a warrantless arrest based on
facts stated in the affidavit.
22




App.47

affidavit can be held liable for false arrest
despite having had probable cause to arrest
the plaintiff without a warrant for a different
offense not identified in the affidavit, an
argument with great force. This said, the
principle was not clearly established at the
time of Gabbert’s alleged conduct, so Gabbert
is entitled to qualified immunity.
A

In Vance v. Nunnery,24 we suggested that
an officer could not evade liability in such
circumstances. While investigating Vance for
the April 5, 1995 burglary of a storage
facility, Nunnery, a police detective, also
received information suggesting that Vance
had burglarized the same facility on March
10 of that year.25 Although Nunnery learned
shortly after obtaining a warrant to arrest
Vance for the April 5 burglary that Vance
could not have committed that crime, he
arrested Vance regardless.26 When Vance
sued under § 1983 for
Page 11
violation of his Fourth Amendment rights,
Nunnery offered a defense strikingly similar
to the one Gabbert presents in this case: he
“argued that he was entitled to qualified
immunity, not because he met the constitutional requirements for arresting Vance for
the April 5th burglary [for which Vance was
actually arrested], but because he had
arguable probable cause to arrest Vance for a

ʹͶͳ͵͹

Ǥ͵ʹ͹ͲȋͷǤͳͻͻͺȌǤ
Ǥʹ͹ͳȂ͹͵Ǥ
ʹ͸ Ǥ
ʹͷ




App.48

‘related offense’—a burglary that he believed
occurred . . . on March 10th.”27
Nunnery’s defense relied on the “related
offense” doctrine, which established that
while a police officer could generally not
obtain qualified immunity for a warrantless
arrest by claiming that he could have validly
arrested the plaintiff for a different offense,
he was entitled to immunity where the charged and uncharged offenses were “related” and
the officer demonstrated “arguable probable
cause” to arrest the plaintiff for the uncharged related offense.28 We had relied on
the related offense doctrine for decades prior
to Vance.29 In doing so, we made clear that
we would not “indulge in ex post facto
extrapolations of all crimes that might have
been charged on a given set of facts at the
moment of arrest[, since] . . . [s]uch an
exercise might permit an arrest that was a
sham or fraud at the outset, really unrelated
to the crime for which probable cause was
actually present[,] to be retroactively
validated”—hence the requirement that
where the charged and uncharged offenses
did not match, they at least be related.30
We concluded that Nunnery was not
entitled to claim the protection for related
offenses because “[u]nlike every police officer
who has successfully invoked the related
offense doctrine, Nunnery did not make a
warrantless

Id. at 273.
Id. at 274
29 See United States v. Atkinson , 450 F.2d 835, 838–39 (5th Cir
1971) (citing Mills v. Wainwright, 415 F.2d 787 (5th Cir. 1969)).
30 Id. at 838.
27
28




App.49

Page 12
arrest[, but instead] arrested Vance on the
basis of an arrest warrant that he knew was
no longer supported by probable or arguable
probable cause.”31 In short, we declined in
Vance to extend the related-offense defense
to warrant based arrests. This approach
recognized that the primary role of the
related offense doctrine was to strike a
“compromise” between forcing officers making warrantless arrests to routinely charge
arrestees with every possible offense “to
increase the chances that at least one charge
would survive the test for probable cause,”32
at one extreme, and allowing officers to
justify “sham or fraudulent arrests on the
basis of ex post facto justifications that turn
out to be valid,”33 at the other. In contrast,
allowing an officer to invoke the related
offense doctrine when justifying a warrantbased arrest “would unjustifiably tilt this
balance in favor of qualified immunity”
because “[a] police officer who obtains an
arrest warrant and then intentionally arrests
someone he knows to be innocent should not
benefit from a doctrine designed to protect

͵ͳ Id.

Though we held in the alternative that Nunnery lacked
probable cause even to arrest Vance for the alleged March 10
burglary, Vance, 137 F.3d at 276–77, this does not diminish the
force of our holding that the related offense doctrine did not
extent to warrantbased arrests. See, e.g., Perez v. Stephens, 784
F.3d 276, 281 (5th Cir. 2015) (per curiam) (discussing the
binding force of alternative holdings).
32 Vance, 137 F.3d at 275 (quoting Trejo v. Perez, 693 F.2d 482,
485 (5th Cir. 1982)).
33 Id. (quoting Gassner v. City of Garland, 864 F.2d 394, 398
(5th Cir. 1989)).




App.50

police officers from civil liability for
reasonable mistakes in judgment made when
they effect warrantless arrests for conduct
they believe is criminal based on their observations or ‘first-hand knowledge.’”34
While Vance is not the only relevant
authority on this issue, it is the clearest voice
in our circuit on the relationship between an
invalid warrant and a warrantless arrest for
a different offense. In a series of pre-Vance
and pre-Franks cases, we had suggested that
a warrant-based arrest was lawful if the
officer had probable cause to make a
warrantless arrest, even if the warrant
Page 13
itself was invalid.35 These cases did not
implicate the same principles as Vance and
this case. Some involved arrests based on
faulty warrant affidavits that could later be
justified by pointing to probable cause for the
same offense identified in the warrant;36

Id.
35 See United States v. Francis, 487 F.2d 968, 971–72 (5th
Cir. 1973) (holding that the sufficiency of a warrant affidavit
was “immaterial” where the arrest would have been valid
without a warrant); United States v. Morris, 477 F.2d 657, 662–
63 (5th Cir. 1973) (“[I]t does not necessarily follow from the fact
that the arrest warrants were defective that the officers’ entry
into the apartment was unlawful . . . . A warrantless arrest is
nevertheless valid if the arresting officer has probable cause to
believe that the person arrested has committed or is in the act
of committing a crime.”); United States v. Wilson, 451 F.2d 209,
214–15 (5th Cir. 1971) (“A search incident to an arrest valid on
one ground is not an illegal search merely because the arrest
would be invalid if supported only by the faulty warrant.”).
36 36 See Francis, 487 F.2d at 971–72; Morris, 477 F.2d at 662–
64. 37 See Wilson, 451 F.2d at 214–15.
34
35




App.51

another addressed an apparent clerical error
that led a warrant to cite the wrong section of
the United States code.37 In contrast, Vance
dealt directly with the question of whether an
officer could make an arrest based on a
warrant that he should have known was
invalid, then claim the protection shed by the
related offense doctrine. We do not take
Vance to be in tension with this line of cases,
but rather to be an interpretation of the
related offense doctrine that predated them.
In sum, Vance rejected the possibility that
an officer could arrest someone based on a
warrant and then, on its challenge,
retroactively justify his conduct by arguing
that he had probable cause to arrest the
person without a warrant for a different
offense. Taking the disputed facts in the light
most favorable to Arizmendi, that is exactly
what Gabbert has done. To be sure, Vance
differs from this case in certain ways. It did
not involve a Franks violation, but rather a
violation of the separate principle that an
officer cannot arrest someone for an offense of
which the officer knows the person to be
innocent. Further, Gabbert include facts in
his warrant affidavit that would arguably
support probable cause for the other offense,
while no such
Page 14
facts were included in the warrant affidavit
in Vance. Neither of these differences,
however, disturb the applicability of Vance’s
underlying recognition that an officer who
made an unconstitutional warrant-based

͵͹




App.52

arrest could not be spared from liability by
the possibility that he could conduct a
separate, warrantless arrest of the same
arrestee—precisely what Gabbert argues
here.
B
Neither party addresses Vance or its
parallels to this case. Rather, Gabbert relies
upon Devenpeck v. Alford,38 where police
believed that a suspect had committed
several offenses—including impersonating a
police officer, lying to officers, and violating
the State Privacy Act—but only arrested and
charged him with an offense that was later
established to be wholly unsupported by the
facts.39 The Court rejected the resulting §
1983 challenge, concluding that the
warrantless arrest was valid so long as the
officers had probable cause to arrest him for
any crime based on the facts within their
knowledge.40 It did not matter whether the
crime for which someone was arrested was
“closely related” to other crimes for which
there was probable cause to arrest—in other
words, the related offense doctrine was too
restrictive—because “[s]ubjective intent of
the arresting officer . . . is simply no basis for
invalidating an arrest.”41 Gabbert argues that

543 U.S. 146 (2004).
Id. at 149 .
40 Id. at 153-56
Ͷͳ Ǥ  ͳͷͶȂͷͷǢ   Ǥ  ͳͷ͵ ȋǲ     
 ǯȋ  Ȍ
       Ǥ    ǡ 
           
38
39




App.53

Devenpeck squarely applies here: he arrested
Arizmendi for one crime, but since he had
probable
Page15
cause to arrest her for a different crime, it
does not matter whether he committed
Franks violations in the course of obtaining
the arrest warrant.
The parties dispute whether Devenpeck
applies solely to warrantless arrests, or also
reaches warrant-based arrests. We, like other
courts, have not explicitly addressed the
reach of Devenpeck in circumstances like
these.42 After Devenpeck, but without


           Ǥǳ
ȋ ȌȌǤ
42 Relying on Devenpeck, the Eleventh Circuit has suggested
that probable cause for a warrant-based arrest is an absolute
bar to a false arrest claim even when the arresting officer lacked
probable cause for “all announced charges.” See Elmore v.
Fulton Cty. Sch. Dist., 605 F. App’x 906, 914–17 (11th Cir. 2015)
(per curiam) (ultimately affirming the dismissal of a false arrest
claim on grounds that did not implicate this principle).
Conversely, after Devenpeck was decided but without
mentioning the case, the Sixth Circuit drew a line between
warrant-based and warrantless arrests similar to the one we
drew in Vance: where “an officer is confronted with a rapidly
developing situation and makes the on-the-scene determination
to arrest someone in the reasonable-but-mistaken belief that the
arrestee committed a crime whose elements, it turns out later,
were unmet though the arrestee’s conduct did satisfy the
elements of a different crime,” the error is “in no small part
technical: [the officer] is correct in believing the arrestee
susceptible to arrest, and mistaken only as to which crime the
arrestee committed.” See Kuslick v. Roszczewski, 419 F. App’x
589, 594 (6th Cir. 2011). Such an officer, the Sixth Circuit held,
“is in a thoroughly different position than . . . [one] who, from a




App.54

addressing it explicitly, we characterized as
“dubious” the argument that “an officer can
give a knowingly false affidavit and avoid
liability by the fortuity that, after the fact, he
may be able to argue some other basis for the
arrest.”43 We have since acknowledged the
possibility that Devenpeck may be limited to
warrantless arrests, though we have not
offered
Page 16
further analysis.44 There are two reasons,

position of safety and retrospective deliberation, decides to
falsify details of the arrestee’s conduct in a sworn statement
made to a magistrate in order to obtain authorization for a
retaliatory arrest.” Id.
Several circuits have also held that an officer who relies on a
facially invalid warrant is exempt from false arrest liability as
long as there was probable cause to arrest the person for the
offense identified in the warrant. See Graves v. Mahoning
County, 821 F.3d 772, 775–77 (6th Cir. 2016); accord Noviho v.
Lancaster County, 683 F. App’x 160, 164–65 (3d Cir. 2017);
Robinson v. City of South Charleston, 662 F. App’x 216, 221 (4th
Cir. 2016). But these cases did not decide whether the offense
identified in the warrant must match the offense for which
there was probable cause to make an arrest. Cf. Goad v. Town of
Meeker, 654 F. App’x 916, 922–23 (10th Cir. 2016) (citing
Graves for the proposition that the court could look to facts
outside the warrant to establish probable cause, but also
explaining that the plaintiff “would have to show that the
Defendants lacked probable cause to support the charged crime
against him” (emphasis added)).
43

DeLeon v. City of Dallas, 345 F. App’x 21, 23 n.2 (5th Cir.

2009) (per curiam).
See, e.g., Johnson v. Norcross, 565 F. App’x 287, 289–90 (5th
Cir. 2014) (per curiam).
44




App.55

however, to doubt that Devenpeck applies
here.
First, Devenpeck applies with significantly
more force in the warrantless arrest context.
The Court expressed concern over ways in
which probing an officer’s mental state could
lead to “haphazard” results—an arrest’s
validity might hinge on whether it was made
by a rookie or a veteran officer knowledgeable
about the law; perhaps more troublingly, the
arresting officer may have an incentive not to
provide grounds for a warrantless arrest to
avoid the risk that the stated grounds would
fail to withstand scrutiny even though other
potential grounds might have succeeded.45
These concerns have little force with arrests
based on warrants, where officers are called
upon to identify both the offense and the facts
that ground probable cause. Nor do warrant
based arrests involve the snap judgments
attending warrantless arrests—so similar
leniency may be undue an officer arresting
with an unconstitutionally invalid warrant.46
Indeed, the Court’s identification of the
related offense doctrine’s potential drawbacks
meshes with the distinction we drew in
Vance between warrantless and warrantbased arrests. As we have explained, Vance
held that an officer was not entitled to the
limited protection of the related offense
doctrine when conducting a warrant-based
arrest; the related offense doctrine was
crafted to provide protection only for officers


Devenpeck, 543 U.S. at 155–56.
See Vance, 137 F.3d at 275–76 (explaining the practical

Ͷͷ
46

differences between warrantless and warrant-based arrests);

Kuslick, 419 F. App’x at 594 (same).




App.56

conducting warrantless arrests, lest they be
forced to proactively identify every possible
offense the arrestee may have committed.
While Devenpeck held that the validity of a
warrantless arrest should not be limited by
an insistence that the officer have
Page 17
probable cause for the charged offense or
related offenses, it did not disturb our previous recognition that allowing an officer conducting an improper warrant-based arrest to
point to another offense for which there was
probable cause would “unjustifiably tilt [the
balance of protection] in favor of qualified
immunity.”47
Second, and relatedly, Devenpeck hinged
on the requirement that we distance
ourselves from an arresting officer’s subjective state of mind, focusing solely on the
objective facts known to the officer at the
time. Yet Franks explicitly requires inquiry
into officers’ states of mind to assess the
validity of arrest warrants. Only deliberate or
reckless misstatements or omissions are
Franks violations; mere negligence will not
suffice.48 This stands in stark contrast to the
Supreme Court’s emphasis on objectivity
surrounding warrantless arrests.
C
Today we cannot conclude that an officer can
deliberately or recklessly misstate or omit
facts in a warrant affidavit to procure a

47
48



Vance, 137 F.3d at 275.
See Franks, 438 U.S. at 171.


App.57

warrant to arrest someone for a specific
crime, then escape liability by retroactively
constructing a justification for a warrantless
arrest based on a different crime. That said,
overarching and reconciling principles bring
clarity.
Franks and Devenpeck operate in tandem
by protecting the validity of an arrest in
circumstances where the arrest does not deny
a person the protections of the Fourth
Amendment—in these circumstances, the
mental state of the officer aside, the arrest is
lawful. In warrantless arrests, there is no
threat to a citizen’s Fourth Amendment
rights where the officer had probable cause to
arrest, albeit not for the offense he chose to
charge. With a warrant, even where
Page18
there was ultimately no probable cause for
the arrest, an officer instead gains the
protection of Franks—invalidating the warrant only for misstatements willfully or
recklessly made, and then only for misstatements necessary to the finding of probable
cause for the charged offense.
As of Gabbert’s conduct, we had not yet
explained this common ground between
warrantless and warrant-based arrests—let
alone established that these principles do not
mandate further protection for an officer who
arrests someone based on a Franks-violating
warrant, then later points to probable cause
to have effected a warrantless arrest for
another offense. A reasonable officer in
Gabbert’s position may not have recognized
that by proceeding with an arrest based on a
warrant, the validity of the arrest would not




App.58

be judged by standards applicable to
warrantless arrests, standards he could have
met. In short, one could have reasonably
taken Devenpeck to protect the validity of
Arizmendi’s arrest, even if—based on the
facts in the light most favorable to Arizmendi
—Gabbert should have known that the warrant itself was invalid under Franks.
Knowing or reckless false statements in a
warrant affidavit are not to be condoned. But
Arizmendi has not persuaded us that Gabbert’s actions were then illicit by clearly established law. Gabbert is therefore entitled to
qualified
immunity.
V
The judgment of the district court is reversed.




App.59

APPENDIX C
Case: 17-40597 Document: 00514976806
Page: 1 Date Filed: 05/30/2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
_
No. 17-40597
_
BLANCA ARIZMENDI,
Plaintiff – Appellee
v.
PATRICK GABBERT,
Individually and in his official
capacity as Criminal Investigator,
Defendant – Appellant
_____________________
Appeal from the United States District
Court for the Southern District of Texas
_____________________
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion March 26, 2019, 5 Cir.,
__________ F.3d__________________)

,

Before HIGGINBOTHAM, SOUTHWICK,
and COSTA, Circuit Judges.
PER CURIAM:
(X) The Petition for Rehearing is DENIED
and no member of this panel nor judge in
regular active service on the court having
requested that the court be polled on




App.60

Rehearing En Banc, (FED. R. APP. P. and
5TH CIR. R. 35) the Petition for Rehearing
En Banc is also DENIED.
( ) The Petition for Rehearing is DENIED
and the court having been polled at the
request of one of the members of the court
and a majority of the judges who are in
regular active service and not disqualified not
having voted in favor, (FED. R. APP. P. and
5TH CIR. R. 35) the Petition for Rehearing
En Banc is also DENIED.
( ) A member of the court in active service
having
requested
a
poll
on
the
reconsideration of this cause en banc, and a
majority of the judges in active service and
not disqualified not having voted in favor,
Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
s/PATRICK E. HIGGINBOTHAM
UNITED STATES CIRCUIT JUDGE




App.61

APPENDIX D
Case: 17-40597 Document: 00514976832
Page: 1 Date Filed: 05/30/2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
_
No. 17-40597
_
BLANCA ARIZMENDI,
Plaintiff – Appellee
v.
PATRICK GABBERT,
Individually and in his official
capacity as Criminal Investigator,
Defendant – Appellant
_____________________
Appeal from the United States District
Court for the Southern District of Texas
_____________________
Before HIGGINBOTHAM, SOUTHWICK,
and COSTA, Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellee’s motion to
dismiss the appeal for lack of jurisdiction is
DENIED.




App.62

APPENDIX E
Case 1:16-cv-00063 Document 56 Filed on
06/07/19 in TXSD Page 1 of 2
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
_
No. 17-40597
_
BLANCA ARIZMENDI,
Plaintiff - Appellee
v.
PATRICK GABBERT,
Individually and in his official
capacity as Criminal Investigator,
Defendant – Appellant
_____________________
Appeal from the United States District
Court for the Southern District of Texas
_____________________
Before HIGGINBOTHAM, SOUTHWICK,
and COSTA, Circuit Judges.
JUDGMENT
This cause was considered on the
record on appeal and was argued by
counsel.
It is ordered and adjudged that the
judgment of the District Court is
reversed.



